<html>
<title> - IRAN: LIMITS TO RAPPROCHEMENT</title>
<body><pre>[Senate Hearing 106-245]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-245
 
                      IRAN: LIMITS TO RAPPROCHEMENT

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON NEAR EASTERN AND
                          SOUTH ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 22, 1999

                               __________

       Printed for the use of the Committee on Foreign Relations




                      U.S. GOVERNMENT PRINTING OFFICE
61-049 CC                     WASHINGTON : 1999



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                PAUL D. WELLSTONE, Minnesota
CRAIG THOMAS, Wyoming                BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey
BILL FRIST, Tennessee
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

          SUBCOMMITTEE ON NEAR EASTERN AND SOUTH ASIAN AFFAIRS

                    SAM BROWNBACK, Kansas, Chairman
JOHN ASHCROFT, Missouri              PAUL D. WELLSTONE, Minnesota
GORDON H. SMITH, Oregon              ROBERT G. TORRICELLI, New Jersey
ROD GRAMS, Minnesota                 PAUL S. SARBANES, Maryland
CRAIG THOMAS, Wyoming                CHRISTOPHER J. DODD, Connecticut

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Green, Dr. Jerrold D., director, Center for Middle East Public 
  Policy, RAND Corp., Santa Monica, CA...........................    12
    Prepared statement of........................................    15
Laingen, Hon. L. Bruce, president, American Academy of Diplomacy, 
  Washington, DC.................................................     3
Nafisi, Dr. Azar, visiting senior fellow, Johns Hopkins 
  University School of Advanced International Studies, 
  Washington, DC.................................................     6

                                 (iii)

  


                     IRAN: LIMITS TO RAPPROCHEMENT

                              ----------                              


                        THURSDAY, JULY 22, 1999

                           U.S. Senate,    
           Subcommittee on Near Eastern and
                               South Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:09 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Sam Brownback 
(chairman of the subcommittee) presiding.
    Present: Senators Brownback and Torricelli.
    Senator Brownback. The hearing will come to order. Thank 
you all for joining us today.
    I want to note before I go to my opening statement that we 
have a memorial service going on for the two slain officers 
that took place at the Capitol. So our thoughts and prayers are 
with them and their families, and that may have some impact as 
well on others, other members that attend this session perhaps 
a little bit later.
    I would like to welcome our panelists and everyone else 
here today to discuss the recent events in Iran and the 
implications for Iran's future and for the future of U.S. 
policy toward Iran. This hearing was postponed twice. We were 
originally planning to explore the progress President Khatemi 
has made in moving Iran toward democracy and the rule of law. 
In the meantime, Iranian students have answered this question 
and sent a very clear signal that progress has been 
disappointing, to say the least.
    Yesterday commanders of the Revolutionary Guards reportedly 
warned President Khatemi that they are running out of patience 
at his moves toward political and social reform and blamed him 
for encouraging the sentiments that exploded in last week's 
pro-democracy demonstrations. The short-term outlook for more 
democracy in Iran appears bleak at the moment.
    The administration had originally agreed to testify at this 
hearing, but since the events of the last 2 weeks the State 
Department's position is that a policy of public silence is the 
most prudent way to react. The fear is that any statement will 
be read as confirmation of the hard-liners assertion that the 
United States provoked the demonstrations.
    We all know this is not the case. The recent uprisings were 
the result of oppressive internal policies and dashed hopes for 
more freedom which President Khatemi had promised. The 
administration's decision to avoid this issue can only achieve 
the very opposite of its weak intent. I cannot think of a 
policy that is more likely to cause the Iranian public to 
believe that the United States is a guilty partner in the 
recent uprisings.
    Rather than silence, the Iranian students need a 
reaffirmation of the principles that this Nation believes in: 
democracy, rule of law, and freedom of expression for all. The 
United States should not be hesitant to speak up for the 
principle of freedom of expression. It is very disappointing 
that the administration could even hesitate on such an 
important matter.
    In fact, if one looks at the rhetoric of the hard-liners in 
Iran, there is very little the United States is not accused of 
doing repeatedly, even absent statements by the administration. 
Hiding our heads in the sand and pretending that if we lay low 
it will not happen is not keeping faith with those very ideals 
that this Nation stands for. Timidity does not suit our ideals 
well.
    Also, even if one accepts the administration's argument, 
which I do not, why are they suddenly worried about coming 
forward to speak about Iran's foreign policy stance and U.S. 
policy in response to that? The fact is that there is little 
change in Iran's foreign policy and it is clear that Khatemi's 
moderate agenda does not extend beyond Iran. Under Khatemi Iran 
has continued its arms delivery to radical groups around the 
world, such as Hezbollah in Lebanon, Iran continues to seek to 
undermine the Middle East peace process, arrest innocent Jews 
and charges them with spurious accusations of espionage, and 
Iran has accelerated its missile program and will in a few 
short years, at the latest, have an ICBM capable of carrying a 
nuclear warhead.
    Despite Mr. Khatemi's much-publicized message to the West 
calling for a dialog between our two peoples, one cannot help 
but note that the Iranian Government allows only a very small, 
select group of Americans to visit Iran.
    What with Khatemi's disappointing message to the students 
that ``Deviations will be repressed with force and 
determination'' and the ongoing arrest and threats of execution 
on charges of which these students are clearly innocent, it 
appears that the so-called moderation of Iran's policy is but 
wishful thinking on the part of the West.
    I look forward to hearing our panelists' views on this and 
on U.S. policy toward Iran in general. Our witnesses today, we 
have three witnesses and one panel: the Honorable Bruce 
Laingen, president, American Academy of Diplomacy here in 
Washington, DC; Dr. Azar Nafisi--and I think I probably 
mispronounced that. Give me the correct pronunciation?
    Dr. Nafisi. ``A-ZAR.''
    Senator Brownback. ``A-ZAR''?
    Dr. Nafisi. Yes, sir.
    Senator Brownback. Is a visiting senior fellow at Johns 
Hopkins University School of Advanced International Studies in 
Washington, DC, and Dr. Jerrold Green, director, Center for 
Middle East Public Policy at the RAND Corporation, Santa 
Monica, CA.
    I want to thank the panelists for being here with us today 
on this very important and timely topic and one that we need to 
have a good discussion about just what is taking place in Iran 
and what the U.S. policy toward Iran should be in light of 
these circumstances and what we have seen in recent history and 
what we have seen of elections and failed promises from those 
elections in Iran.
    With that, I would like to turn to Mr. Laingen for his 
statement to put forward to us in front of the committee. Thank 
you for being here.

STATEMENT OF HON. L. BRUCE LAINGEN, PRESIDENT, AMERICAN ACADEMY 
                  OF DIPLOMACY, WASHINGTON, DC

    Ambassador Laingen. Thank you, Senator. Thank you for 
asking us. I applaud the fact that you are holding this 
meeting.
    For the record, let me state--and I want to make a general 
statement and then I am quite prepared to respond to questions 
later about the events most recently in Iran.
    Senator Brownback. Good.
    Ambassador Laingen. For the record, I served twice in Iran 
in my 40-year career in the Foreign Service. I am not now in 
government. I do not pretend to be that informed, if you will, 
and I have not been back to Teheran since I left, now soon 18, 
19 years ago. But I have not lost interest in the place.
    I would make my position very clear up front about policy. 
I favor the earliest possible dialog with that government in 
Teheran. In fact, I deeply regret the fact that we have not had 
contact, official contact, with that government, with that 
people, for soon 20 years, a country of immense consequence for 
us in that region.
    Indeed, if it were possible I would favor immediate 
resumption of diplomatic relations, granted the difficulty of 
doing that. I have felt that way since January 20, 1981, from 
the time I boarded that Algerian aircraft on the tarmac in 
Teheran, not because I like that regime--I did not particularly 
like it then, I did not, and I do not today--but because the 
absence of contact in my view does not serve American 
interests. I proceed from that point.
    Indeed, it complicates our strategic interests throughout 
the region, including those interests in the emerging central 
Asian states and their oil future. Our current policy denies us 
involvement with one of the largest emerging markets in the 
Middle East. It simply postpones the time when we need to deal 
directly with the Iranians about security issues in the Persian 
Gulf. And our policy has left us with inadequate contacts over 
these years with the future of Iran, that is its young people.
    I simply cannot see that our sanctions-driven containment 
policy has worked. A poor word in any event, ``containment.'' 
Iran is not easily contained. Our capacity to change its 
behavior is limited. What may be beginning under Khatemi in my 
view is a product of the internal contradictions of that regime 
and not primarily or even largely because of outside effects.
    To reiterate, I am no admirer of that regime. I do not like 
it now, I did not then. I do not like theocracies. I have seen 
them up close in Teheran. I returned, indeed, with a deep 
appreciation, a profound appreciation, of my great good fortune 
as an American to be living in a country with its traditions of 
separation of church and state. But it is reality, what is 
there today.
    And I certainly do not appreciate its record in human 
rights. You, sir, and others probably have read the recent 
report of Amnesty International on the compilation of their 
record in human rights in recent months and years, and it is 
not attractive by any means.
    But to reiterate, it is reality. I believe it is a 
revolution here to stay in some fashion, although I am 
convinced it must and will change with time into something more 
compatible with Iran's own national traditions and Shi'a Islam.
    I concede, Senator, I am a diplomat by training and 
experience and an optimist by nature, so I am prejudiced for 
those reasons toward dialog. But in all reality I see no other 
way to deal with the concerns to which you referred, and they 
are real, that we have vis-a-vis Iran except somehow finding a 
way to sit down and talking to them directly, or indirectly if 
necessary, through a third party if that were possible.
    Their concerns are real, our concerns are real. I often in 
my wilder moments wish that some Iranians and Americans could 
go off somewhere like the Israelis and the Palestinians did, to 
Oslo, and come up quietly with some way to begin, in the first 
instance simply to begin talking about how we are going to talk 
about these issues.
    It is long since past time to be talking at each other--
that is what we have been doing--or past each other. But I am 
also a realist. It is clear that we have got a problem in 
talking when the other side is not open at the moment to 
talking. The supreme leader, the Ayatollah Khamenei, is rigid 
on that point. Khatemi is on record, as he was in the CNN 
interview of now a year and a half ago, saying that Iran does 
not need a relationship with the United States. I believe in 
his mind he knows that they do.
    Given that state of affairs, what to do? Well, to review 
where we have been, we have lowered our rhetoric. Both sides to 
some degree have done that, and in any effort to have a dialog 
one has to at least begin with that. We have taken some steps, 
as you know Senator, steps in the area of lifting sanctions 
dealing with food imports and medical supplies.
    There has been some easing on visas on our part, although I 
think that is still very minimal, and certainly there has not 
been much on their part. We have removed Iran from our list of 
countries that facilitate the transit of illegal narcotics 
across their borders. We have responded favorably, at least in 
rhetoric, and I think the President has, to Khatemi's call for 
people to people contact.
    There was a time about 8 months ago, a year ago, I think, 
when we got into a kind of pin-down diplomacy, reminiscent of 
ping-pong diplomacy with China, when our wrestlers went to 
Teheran and returned, and I was proud to have joined the 
President in the Oval Office to welcome them back.
    These things are a start. Beyond that, yes, we need to be 
realistic. We are not likely to see much risk-taking there in 
the period leading up to elections next February or March. I 
concede full well that there is some danger in an embrace by 
us, a publicly evident embrace by us of Khatemi or any other of 
the reformers at this point. President Clinton expressed that 
concern very eloquently, I thought, yesterday and very well 
yesterday, and I think I would like to read into the record 
what he went on to say:

        I think that people everywhere, particularly younger 
        people, hope that they will be able to continue their 
        religious convictions and their personal opinions and 
        dreams in an atmosphere of greater freedom that will 
        allow them to be deeply loyal to their nation. I think 
        the Iranian people obviously love their country and are 
        proud of its history and have enormous potential.

    The President has not failed to be on the record in recent 
months in that sense.
    Beyond all of that, I believe myself that the charges of 
the risk of an embrace, granted that it is there, can be 
overstated and we need to be not quite that reticent. We are 
going to continue to hear the charges, no matter what we say or 
do, from the hard-liners about involvement by the great satan. 
But I believe that much, if not most, of informed public 
opinion in Teheran and Iran is weary of that and has set it 
aside.
    Too much reticence in my view does not help us, because I 
think it is a given, I view it as a given, that our interests 
would be better served if the more moderate forces under 
Khatemi were to continue to progress. So I believe we should 
never fail to affirm our readiness for dialog. Secretary 
Albright has made that clear. I would like to see us--again I 
have to reiterate, I am not in government. I cannot be that 
well informed, obviously.
    I would like to see us take a little more seriously what 
she said about looking for parallel steps that we can both take 
leading to what she called a road map that might lead to a 
better relationship. I think we need to keep in mind that the 
President has authority, as I see it, to make further steps in 
the area of sanctions that could be eased in that field and be 
a signal.
    There is the possibility, as I understand it, and I am not 
that well informed, that in the area of spares for Boeing 
aircraft in Iran, for example, there might be something that we 
could do to move things along.
    As all of us know, one of the places we do have official 
contact with the Iranians and have had for 20 years is The 
Hague Tribunal in the Netherlands, one of the more useful 
products of the Algiers Accord that brought us hostages back to 
freedom. There we have had official contact with Iranian legal 
representatives dealing with past claims that have been very 
large, but where progress has been made, and I would hope that 
we might be able to find some way to expedite that continuing 
process.
    I do not underestimate the fact that your hearings today, 
the fact that you are holding them, will make an important 
statement back in Teheran. I would welcome more interest on the 
part of the Congress. I think there has been much too little 
expression of interest by the Congress, by representatives of 
the American people, about Iran and our problems there, because 
our interests are so large in that region and are so impacted 
upon by the fact of Iran and our problems with that country.
    The bottom line, Senator, on the public record should 
always be clear--and we have Radio Free Europe, Radio Iran, to 
help make that clear to the people of Iran--that the American 
people look forward to the day when our two peoples can again 
have a productive, reasonably cordial relationship with each 
other, that we applaud President Khatemi's call for a dialog of 
civilizations and are ready to respond; that as a Nation with 
one and a half million roughly, more or less, Iranian-Americans 
among us now who have chosen to make America their home, that 
we welcome any and all movement toward greater freedoms in that 
society under a rule of law and a civil society within that 
Islamic revolution.
    Thank you, Senator.
    Senator Brownback. Thank you.
    Dr. Nafisi, please. Thank you for joining us today.

STATEMENT OF AZAR NAFISI, PH.D., VISITING SENIOR FELLOW, JOHNS 
 HOPKINS UNIVERSITY SCHOOL OF ADVANCED INTERNATIONAL STUDIES, 
                         WASHINGTON, DC

    Dr. Nafisi. I would like to thank you for asking me to 
testify today. It is a great privilege.
    Senator Brownback. If you could, that microphone is pretty 
directional, so you need to get----
    Dr. Nafisi. Should I push it back or forward?
    Senator Brownback. Pull it forward toward you.
    Dr. Nafisi. Forward? Usually I have to push it back.
    I would like to thank you for the privilege of being here 
today to testify. I just also want to go on the record about my 
own background. Sometimes I am mistakenly called an Iran 
expert. I am an Iranian; I am not an Iran expert. Actually my 
field of expertise, which I think my experiences in the past 18 
years in Iran has shown to be one of the most subversive in 
relation to an authoritarian regime, is English literature, and 
that is what I do, not just for a living but for being alive.
    I have been spending--after I finished my degree, I went 
back to Iran in 1979 and in that capacity I have been teaching, 
writing, and working as a woman for human rights of Iranian 
women, as well as working very closely with the Iranian 
students.
    In 1980 when the government made the veil mandatory in 
Iranian universities, I and three of my colleagues at the 
faculty of English literature and languages--Persian literature 
and languages, refused to wear the veil, refused to go to the 
university, and were expelled, and this system of sort of 
guerrilla warfare has continued until today, when I am sitting 
here and have the privilege to testify about my people.
    I would like to concentrate what I want to say today about 
the situation in Iran today and what has happened during the 
past 2 weeks. I would also like to take the student protests of 
the past 2 weeks and the role various factions in Iran have 
played in these protests as a microcosm of what is happening in 
Iran.
    So what I will do, I will pose certain questions and then 
try to answer those questions, and at the end of the conclusion 
then I will talk a little bit about what I think, at least, as 
an Iranian, as a woman, and as an academic, but most important 
as a person who does believe in certain universal values and in 
democracy, what the United States could do which would be 
helpful to the struggle of the Iranian people.
    So the first question that I have been asked during the 
past 2 weeks is: Who are these students? How representative are 
they of the rest of the society? Sir, I would like to tell you 
that these students are what the government a long time ago, 20 
years ago, called children of revolution. It is now the 
children of revolution that are questioning the basic tenets of 
that revolution.
    A few months ago one of the, Manoochehr Mohammadi, who 
later on, actually about 2 or 3 days ago, was seen on the 
Iranian TV--under torture he was brought to the Iranian TV to 
testify that he came to the United States as a spy and that he 
had meetings with different Zionists and imperialist agents in 
order to work against his country.
    Now, Manoochehr Mohammadi and another student rebel leader, 
Tabarzadi, these are representative of what the student body in 
Iran is today. Unlike what certain papers and op-eds have been 
saying, they do not come from the more comfortable section of 
the Iranian society. Seventy percent of the student body in 
Iran is the government's share. They come from the families of 
the Islamic Revolutionary Guards, the Islamic militia, and 
families of the martyrs of the war with Iraq.
    So the body of the students as represented by Mohammadi and 
Tabarzadi, both of whom are in jail now, are people who either 
come from families who belonged to the revolution, who were 
faithful to the revolution--Tabarzadi's two brothers were 
killed in the Iran-Iraq War--or they come from families who or 
they themselves as young people, like Mohammadi when he was 13, 
participated in the 1979 revolution against the Shah.
    These students today have changed the name of their 
organization from the Islamic Students Association to the 
Democratic Students Association.
    I will go into more detail into what they are all about. 
These are the people who 20 years ago demonstrated so that I 
would be wearing the veil, and now when they come to Washington 
I would be one of the people they want to talk to. These are 
the people who not only said ``Death to the Shah,'' but said 
``Death to the nationalists,'' to the Prime Minister Mossadegh. 
But now the Iranian Government is asking you to apologize for 
the 1953 coup. In fact, the Iranian Government has always been 
anti-Mossadegh, anti-nationalist, and one of the reasons for 
the torture of these students in jails right now, as they said 
to the radio here in Los Angeles, is the fact that they have 
been using the slogans that are pro-nationalist and pro-
Mossadegh.
    Now, what I want to say is that the change within the last 
20 years has been very significant within the Iranian society, 
and these changes come from within that society, because when 
this revolution began my people went into the streets not 
wanting to take away their rights, but wanting more rights. 
They did not know what an Islamic republic meant, but their 
main slogans were for more political participation and for more 
social participation.
    The contradictions we are confronted with now and the 
contradictions that the students here represent today come from 
using a religion and using it as an ideology and imposing it 
upon a very vibrant and dynamic society. So this is the problem 
that Iran is facing today.
    Now, who are the allies of these students? How 
representative are they? As I said, since they come from the 
families of people who were supportive of the revolution and 
since the demonstrations that started in Teheran spread to 17 
other cities in Iran, you will see how all-embracing these 
demonstrations were.
    Not only that, but the way the Iranian citizens acted in 
the streets in support of the students was very reminiscent of 
the 1979 revolution. People were passing students ice water and 
they were reprimanding the Revolutionary Guards and the 
militia, telling them: Why are you killing your own brothers? 
You should be ashamed of what you are doing.
    Senator, if you know anything about a country like Iran you 
would know that 25,000 people coming into the streets to oppose 
the policies of the government are putting their lives on line, 
so it is very difficult to bring those people into the streets. 
But 100,000 people coming to the call of the government is 
nothing. Even during the Shah's time, there would be bus loads 
of people from government, from schools.
    This time, Elaine Sholino in a report from Teheran also 
talked about the fact that the militia were told to wear 
civilian clothes and to participate in these demonstrations. So 
100,000, when before they could bring a million people into the 
streets, is nothing and it shows how disappointed and 
disenchanted the Iranian people are with the state of their 
affairs.
    The students, their demands and their slogans, and I will 
come to their slogans in a few minutes, reflect what the 
majority of Iran's nascent civil society has been asking, 
especially in the past 2 years. They were protesting very 
peacefully against the banning of the moderate paper Salaam, 
which by the way has been published for the past 10 years 
without being banned.
    They were also protesting against a very repressive press 
law that was passed by the Iranian parliament. They were also 
asking for the trial of the murderers of the nationalist and 
secular leaders Daryush and Parvaneh Forouhar and three others 
to be brought to justice. This is what their demands were.
    In these demands, they were supported not just by secular 
and nationalist forces. There was in fact support from people 
filling the ranks of the clerics. The Grand Ayatollah 
Montazeri, who is the highest ranking cleric in Iran, wrote a 
two-page virulent attack on how the government acted in this 
matter. Ayatollah Taheri of Esfahan did the same thing. There 
is a great deal of unrest within the younger clerics.
    During the past 2 years, those who have been victims of 
this government, thanks to Mr. Khatemi, have been in fact 
people who were from within the wombs of the Islamic 
revolution. I will bring you two examples: Mohsen Kadivar, a 
young, very popular cleric who is now in jail and on whose 
behalf the students have also been protesting and 
demonstrating, and Hojatoleslam Sayidzadeh, who protested 
against the repressive laws against women.
    You know that the laws against women--the rule of law that 
Mr. Khatemi is talking about is no Magna Carta, sir. This is 
the law which has changed the age of consent for girls from 18 
to 8\1/2\ lunar years. So a girl of 8\1/2\ will be married, but 
a woman who is 50 years old cannot be married for the first 
time without the consent of her father.
    This is the law that stones men and women for the crime of 
adultery. This is the law that does not consider women as whole 
human beings. Women are considered as half a man, so two women 
witnesses will take the place of one man. So these are the laws 
that we are talking about when we are talking about the rule of 
law.
    Above all, this is the law that has the supreme leader, 
religious leader, Ayatollah Ali Khamenei, as the sole person 
who can say yea or nay to anything that goes on in that country 
today.
    Now, what I want to say then is that the important thing is 
not that people like me, who were never enchanted by the 
revolution, are now today disenchanted. Today people who came 
from the heart of the revolution, who were in fact the 
instruments in creating this revolution, are now disenchanted, 
and that is why the government feels such a threat.
    What are the people who attacked the students? I would not 
go into that, sir. You yourself in your statement talked about 
the vigilantes who, with the aid of the police, ransacked and 
threw the students from the rooftops of their dormitories.
    But I would also like to bring to your attention that in 
the reports from the demonstrations one person who was badly 
wounded, and that is why he was discovered, belonged to the 
Hezbollah in Lebanon. So it is not just the vigilantes in Iran 
that are sort of participating in these demonstrations.
    The last--the next point, and then I will try to come to my 
conclusion that I would like to make, is what do these people 
want? I would like to draw your attention to the slogans that 
these students have used. At the beginning of the revolution 
the slogans were ``Death to America,'' ``Death to Zionism.'' 
Now their slogans are ``Death to Despotism, Long Live 
Liberty.''
    They have specific targets as despots. Nobody in Iran in 
their right or wrong mind would dare come into the streets and 
say: We do not want the Islamic republic. They did not say 
that, sir. But let us see what they did say. Their slogans were 
mainly targeting Ayatollah Ali Khamenei as the supreme leader, 
the judiciary system, the Iranian parliament, the Iranian 
Revolutionary Guards, and the Iranian militia. So who is left? 
You do away with these, you still want the Islamic republic, 
fine.
    Were there any specific Islamic slogans, the way there used 
to be before? No, there was not. As far as I can tell--I cannot 
be sure about that--there was not one mention of even Ayatollah 
Khomeini.
    Who were the main favorable targets of these slogans? The 
nationalist leaders and Prime Minister Mossadegh, plus the 
press. Did they ask just for the freedom of Islamic prisoners? 
No, they asked for the freedom of all political prisoners, the 
freedom of all expression.
    Those who say that the Iranian people do not want 
democracy, they only want Islamic democracy, should define for 
us what does ``Islamic democracy'' mean? Do you have Christian 
and Judaic and Zoroastrian democracy? Do you want democracy and 
then stone men and women on charges of prostitution? The 
slogans of the Iranian students today, which has been supported 
by the various progressive forces within Iran, tells you 
exactly what kind of democracy Iranian people want, and it is 
neither Western nor Islamic. It is democracy.
    The last part is the role of the regime. I think the 
Khamenei group and what is now called the hard-liners, their 
position is much simpler and actually I think it is much more 
understandable. Mr. Khamenei knows that any radical reform in 
Iran would lead to his ouster and he has nowhere to go. So he 
will use violence and he will consistently call the Jewish 
prisoners, the Bahais, the women, the progressive clerics, and 
now the students as agent provocateurs of Zionists and American 
agents.
    Those who talk about a policy of silence should know that 
if America, if international organizations, keep silent, that 
would not mean that you would not now be implicated. What it 
would mean is that you are now complicit in the guilt that 
these people are trying to attach to the students.
    I would like to bring your attention to the fact that each 
point in the case of Faraj Sarkouhi, the Iranian journalist, in 
the case of Sayidi Sirjani, in most cases in Iran where 
somebody's life was under threat, only the international 
organizations, only because of the pressure from abroad, did 
the regime do anything about it.
    The students today have a web site. They have e-mail. They 
are asking for help from all strata and sectors of American or 
any other democratic society. So this silence is not to 
anybody's advantage.
    Mr. Khatemi's position is more problematic. He is a 
paradox. On the one hand, in order to be elected he has to 
believe in the basic tenets of the Islamic regime and he has 
shown it, especially in the recent events. On the other hand, 
his agenda is an agenda that would be shaking the very 
foundations of that regime.
    He should be judged according to what he does. As one of my 
students says, he has created an Islamic republic of words, 
which are democratic in words, but in an Islamic republic of 
action we have not seen any change. So we should--we should 
support Khatemi whenever he is doing right by the Iranian 
people and we should not support him and condemn him whenever 
he does not do so. So the good guy-bad guy formula does not 
apply.
    The last point, and this is the last point that I would 
like to make, what you can do. This is the best, the golden 
opportunity for you to create a people to people dialog. Up to 
now the people to people dialog has been mainly the Iranian 
people, the Iranian members of the Iranian regime or members of 
Iranian civil society come here under the monitorship of the 
Iranian regime.
    You should reach out your voice. After all, Mr. Khatemi 
correctly reached out to the America people. Why do you not? If 
you want stability in Iran, if you want the three conditions 
fulfilled, then you have to create a base, and the base should 
be democratic.
    The Iranian people are in the streets today and telling you 
what they want. I think you should support them. This dialog 
with the government is fine. It is not the American Government 
who does not want dialog. It is the Iranian Government who is 
not in a position to have dialog.
    So I would like to ask you--the lives of Mr. Mohammadi, Mr. 
Tabarzadi, and 1,400 people who have been arrested are in 
jeopardy. I would like to ask your support. I would like to end 
this by a message that the Iranian students--and this is the 
legitimate council that supports Mr. Khatemi--sent to Mr. 
Khatemi. I am quoting them in their message. They told him: 
``The courageous Iranian people will judge your actions and 
will discover whether your declarations concerning civil 
society and so on are merely political or sincere.''
    I think this is the way the Iranian people will judge who 
their friends and who their enemies are. Thank you, sir.
    Senator Brownback. Thank you, Dr. Nafisi. That was an 
excellent and very passionate statement, and I hope we can get 
from you the names of these freedom fighters that are 
imprisoned and whose lives are in peril, so that we could put 
their names forward for the rest of the world to see.
    Dr. Nafisi. I have already given their web site and also 
the names that I got from the web site this morning, sir. I 
would appreciate that.
    [The information referred to follows:]

                      (Press Realease: 7/18/1999)

        List of Individuals Arrested--(partial and known to us)

    Followings are list of some of the people arrested in Tehran on or 
about Tuesday July 13, 1999 and thereafter. This does not reflect the 
complete list of arrested individuals. We are concerned that they may 
be tortured and executed.
    Please publicise these names in order to put international pressure 
on Iranian authorities not to harm them.
    These names are given to us by responsible people we know in 
Tehran. Please send us the names of any individual arrested with the 
source of information.

    Latest Information: Mrs. Elaheh Amir Entezam was arrested one hour 
ago. Abbas Amir Entezam reported that as many as 2000 arrested people 
were brought to Evin Prison and they are being tortured.
    The Entire Leadership of Tabarzadi Group, including Seyed Javad 
Emami and Salamati, except Parvlz Safari, were arrested.

    Information issued by Shoraye Montakhabe Daneshjooyane Motahassen 
in Tehran Saturday, July 17, 1999 (Representative Council of Sit In 
Students)
    One Female Student named Haami-Far was killed. Many more youths 
have been killed.
    Other reports by Mohammad Milani from Daftare Tahkeim (Office of 
Strength) stated that:
    City of Esfahan--20 students arrested among them 5 female and 
Mohammad Majidi was beaten severly and was unconsious for many hours.
    City of Tabriz--Vigilante groups armed with sticks and guns 
attacked students, 16 people were injured and they were taken to the 
hospital which was reporting they have been kidnaped from the hospital 
beds and their whereabouts is unknown.
    Over 1400 Students and other Activists have been arrested.
Hezbe Melate Iran (Iran Nations Party, founded by Martyr Darioush 
        Forouhar)
    1. Khosrow Saif (One of the Leaders and Spokeperson, 70 years old).
    2. Bahram Namazi (One of the Leaders).
    3. Safarifar (Kermanshah Leader).
    4. Mir Abdolbaghi Kashani (Kermanshah).
    5. Mehran Gorkani.
    6. Farzin Mokhber.
    7. Esmaeil Moftizadeh.
Jonbesh Democratic e Melli e Iran
    1. Maryam Shansi (Maloos Radnia) (See Amnesty International 
Communique of 7/14/1999.)
    2. Several other members have escaped the wave of arrests and are 
in hiding.
Andjomane Daneshjooyan va Daneshammokhtegan e Melli
    1. Manouchehr Mohamadi.
    2. Gholam-Reza Modjerinejad
Anjomane Daneshjooyan va Daneshamookhtegane Islami, (Islamic Society of 
        Students and Graduates, Tabarzadi Group, Tabarzadi was jailed 
        before)
    1. Mohammad Reza Kasraii (along with many more).
Hezbe Marze Porgohar, (Glorious Fronteirs Party)
    1. Roozbeh Farahanipour (Chief Editor of Vahoumen Mag).
    2. Hossein Ghadyani.
    3. Davoud Ahmadi Mounes (Armin) (Caricaturist of Zan Magazine, 17 
year old).
    4. Afshin Tajian.
    5. Hossein Zahmatkash (Fotographer of Neshat Daily News).
    6. Maryam Danaii Broomand (Author of Forgotten Letters of Hedayat).
    7. Maryam Taadi (Reporter of Khordad Mag).
    8. Farima Kolahi.
    9. Anahita Najafi.
    10. Forough Bahmanpour (8,9,10 all Journalist of Free Trade Zone 
Magazine).
    11. Mrs. Nasiri (Mother of Roozbeh Farahanipour) was arrested 24 
hours after her son.
Unknown affiliation
    1. Ms. Doctor Behieh Jilaani.--Based on information provided by 
Majame Islami Iranian, (Societies of Islamic Iranians). Announcement of 
13 July 99.
The following individuals are either killed, injured, jailed or 
        disappeared without any trace
    1. Abbas Karami.
    2. Ghorbanali faraji.
    3. Morteza Hadadi.
    4. Hamid Aghajani.
    5. Mohammad Salary.
    6. Mehdi Bazazadeh.
    7. Amrollah Mir Ghasemi.
    8. Davood Movahedi.
    9. Alirreza Zamani.
    10. Ahmad Darvish.
    11. Mohammad Ghandi.
    12. Baig Baler Saneei.
    13. Alireza Sohrabian.
    14. Zakeri.
    15. Obaidi.
    16. Naeimi.
    Some of these arrests were carried out with violence at peoples 
residence such as shooting at windows and walls of Reouzbeh's house.

    Please utilize these names in your activities and send them to 
various, international organizations.

    We are concerned about the safety and lives of these and many other 
arrested people. We demand immediate release of the students and 
activists arrested.
        long live liberty and the struggle for democracy in iran
    The Student Movement Coordination Committe for Democracy in Iran--
www.iran-daneshjoo.org

<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6d041f0c031e1918090803191e2d050219000c0401430e0200">[email&#160;protected]</a>

+1 (972) 504-6864

    Senator Brownback. Thank you.
    Dr. Green, thank you very much for joining us. The floor is 
yours.

  STATEMENT OF JERROLD D. GREEN, PH.D., DIRECTOR, CENTER FOR 
    MIDDLE EAST PUBLIC POLICY, RAND CORP., SANTA MONICA, CA

    Dr. Green. Let me begin by saying I have written a 
statement which I hope will be entered into the record.
    Senator Brownback. Yes, it will.
    Dr. Green. I do not want to go over what is in there, but 
instead to raise a few other issues.
    Second of all, I would like to thank you for devoting so 
much of your precious time to discussing Iran, which is 
enormously important. I am privileged and delighted to be here 
to share my limited insights with you.
    I am a political scientist. I began my study of Iran in the 
1970's, wrote my Ph.D. dissertation on the Iranian revolution, 
and did field work in Teheran during the revolution. I have 
been back to Teheran twice since then. I have been involved in 
assorted track two meetings with various Iranian officials, who 
are indeed officials, monitored by Teheran, and who are limited 
in terms of their ability to influence change, both 
domestically and internationally.
    One thing in which I remain interested is U.S. policy 
toward Iran. Having witnessed a rather shameful episode in our 
own history in terms of our ability to deal effectively with 
events in Iran in 1978-79, I am keenly committed to trying to 
think as systematically as I can about U.S.-Iran policy, the 
importance of which seems evident.
    I think it can be synthesized to several points. The first 
is, what do we want in Iran? There are three areas in which we 
have had significant disagreements with the Government in 
Teheran. The first is the use of terrorism; the second is 
rejection of the Arab-Israeli peace process; and the third is 
Iran's attempt to develop WMD capability and, in particular, a 
nuclear capability, specifically with assistance from Moscow 
and others.
    Although there has been some progress on some of these 
divisions, there has also been backsliding. It is quite clear 
that progress has been insufficient, although we tend to be 
somewhat charitable about this insufficiency. this is because 
of President Khatemi, the speech he made to the American people 
on CNN, and an inchoate sense that he is a good guy with good 
values with whom we can deal. None of this has been articulated 
or has been fleshed out to my satisfaction.
    The other issues, which are more recent, include the arrest 
of 13 Jews in Shiraz on charges of espionage for Israel, which 
have not been documented and are in my view highly 
unpersuasive, and subsequent events that are occurring not only 
in Teheran, but in Tabriz and elsewhere throughout Iran, as 
described by my colleague Dr. Nafisi.
    It is within this context that the U.S. needs to figure out 
what is its policy, what are our strategic interests, what is 
it we would like to see happen in Iran, and what outcome would 
we like to see occur. This has not been articulated to my 
satisfaction.
    The second question we have not talked about today involves 
how our Iran policy affects our broader regional interests. 
Significantly, one of the forces that led to a U.S.-Iranian 
rapprochement, limited as it may be, was in fact a Saudi-
Iranian rapprochement.
    It is interesting to look at Iranian diplomacy and at its 
foreign relations. Foreign Minister Kharrazi recently visited 
Amman in Jordan. There has been an improvement in ties between 
Iran and Lebanon, not only Hezbollah, but the government of 
Lebanon itself. There was a very successful state visit to 
Italy, and a failed state visit to France because President 
Khatemi was unwilling to have himself photographed at a dinner 
table littered with wine bottles and the French, being as 
devoted as they are to wine, were unwilling not to serve wine 
and therefore the visit was canceled.
    Germany also canceled a state visit, because of the arrest 
of the Jewish prisoners in Shiraz.
    Senator Brownback. I thought you were going to say there 
were beer bottles on the table in Germany.
    Dr. Green. When I was writing my statement I was feeling 
very eloquent, talking about a conflict between Islamic 
fundamentalism and French oenophilia!
    In any case, it is quite clear that there is a lot of 
uncertainty and for us to conceptualize Iran in isolation from 
our other regional and global interests is a serious mistake. 
Israel is frequently invoked in a way that portrays the 
Israelis as being somewhat more monolithic on the Iran issue 
than they are. In fact, in Israel now, there is an interesting 
debate going on about what Israel's posture should be vis-a-vis 
Iran. There was an important dissenting piece written in one of 
the main Israeli newspapers, by a professor in Jerusalem.
    The Israelis themselves are trying to grapple with the Iran 
issue, and the forces that led to these hearings have been 
outstripped in my view by the arrest of the people in Shiraz 
and other recent events in Iran. The question of rapprochement, 
dicey to begin with, may appear to be even more uncertain now 
because of these recent events.
    Other regional issues which I think are important to talk 
about include Afghanistan, in which the United States and Iran 
for different reasons have problems with the Taliban as well as 
Pakistan, with its nuclear test. The foreign minister of Iran 
was in Islamabad within a week of the test talking about the 
Islamic bomb, which, put differently was, you have nuclear 
devices, we do not, what are the implications for us in Iran. 
Iraq is another area to which I think we need to be attentive.
    I am not arguing for U.S. policy coordination with Iran on 
all these issues. More sufficient attention is needed however, 
about how our position and policies toward Iran affect our 
regional interests and even our global ones. A lot of time has 
been spent trying to persuade the Russians to halt their 
provision of WMD components to Iran without a great deal of 
success.
    My next question is whether we can in fact have any impact 
on Iran or on events in Iran either through engagement or 
through containment? These are the two bookend positions. One 
argues that we engage the Iranians in the way in which the 
Europeans did. The other is that we contain them, as was the 
case with what used to be called dual containment.
    Do either one of these really make a difference? Can we 
really have an impact on Iran, either domestically or 
regionally? Again, we could have a vigorous debate about 
precisely this issue. The reality is that I am not certain 
about the degree to which we can have an affect on Iran. Second 
of all, I am not certain the degree to which we want to have an 
affect on Iran, given our important strategic relations with a 
number of other partners including Saudi Arabia, our NATO 
allies, and others. It is really difficult to talk about Iran 
in isolation from all of these factors.
    The next point involves whether we have partners in Iran 
with whom we can work? In other words, let us assume that we 
articulate a policy toward Iran. Our policy toward Iran needs 
an Iranian component. We need people with whom we can 
collaborate, people with whom we can talk, people with whom we 
need to run past our ideas, our expectations, and so forth. 
Again, I am not certain that there are people over the long 
haul with whom we can collaborate in Iran, certainly not 
President Khatemi by himself.
    It is with these issues that I am deeply concerned, as we 
cannot have an Iran policy without Iran in it. The question is, 
with whom do we deal vis-a-vis this Iran policy? I have been in 
countless track two meetings with Iranian Government officials. 
I always find them beneficial although I always wonder why the 
meetings happen in Europe, how representative are the people 
with whom I am meeting. I find them fascinating, I find them 
important, but at the end of the day I am not certain that 
these people have the ability to forge the kind of deal that we 
would like.
    Let me conclude. I think that this issue needs to be linked 
to the question of what is the U.S. interest in Iran, what are 
our strategic objectives, and how do we hope to accomplish 
them? As simple as this formulation sounds, it has been 
bedeviling us for 20 years. I saw it on the streets of Teheran, 
I saw it in the American Embassy in Teheran during and after 
the revolution. I have seen it elsewhere in the Middle East, 
and I think until we get that right, the rest of our discussion 
is just that. Discussion is interesting and informative, but I 
am not certain that the absence of focus is taking us down the 
road that we wish to take.
    Thank you.
    [The prepared statement of Dr. Green follows:]

               Prepared Statement of Dr. Jerrold D. Green

                              introduction
    In recent times we have begun to see a gradual but subtle decline 
in the acrimony that has characterized mutual perceptions of the United 
States and the Islamic Republic of Iran. From the Iranian perspective, 
the most undeniable sign of improvement began with President Mohammad 
Khatami's address to the American people via a CNN interview where he 
advocated a ``dialogue of civilizations.'' Other indicators have 
included an assortment of Track II type meetings between Iranians and 
Americans, sporting competition between the two countries, a modest 
increase in U.S. tourism to Iran, opportunities for American students 
to study in Iran, and a variety of other extremely limited 
improvements. Far more significant have been comments by senior 
American officials such as a speech delivered by Secretary of State 
Madeleine Albright to the Asia Society last spring, and more recently, 
comments made by President Clinton at a Holocaust Day memorial ceremony 
at the White House. Other factors which have contributed to an 
improvement include public statements by such well known Americans as 
James Baker and Lee Hamilton, as well as a Foreign Affairs article by 
Zbignew Brzezinski and Brent Scowcroft. The common theme linking these 
pronouncements is a generalized recognition of the importance of Iran, 
and the utility to the United States of gradually re-establishing some 
sort of relationship with this key country. These efforts have been 
aided by the fact that most U.S. allies have improved their relations 
with Iran. The United Kingdom and Iran have agreed to re-establish 
diplomatic ties at the highest level, reflecting British satisfaction 
that official Iranian government support for the assassination of 
Salman Rushdie has come to an end. Having said this, the bounty on 
Rushdie's life by an Iranian bonyad (foundation) remains in place and 
was even increased in value. In this apparent paradox, we find intra-
Iranian disagreement about ties with the West which remains a primary 
impediment to greater U.S.-Iranian rapprochement. Finally, other 
actions which have generally been interpreted positively in Tehran 
include the unwillingness of the White House to enforce the Iran-Libyan 
Sanctions Act (ILSA) on foreign oil companies dealing with Iran (the 
French company Total being the company in question), a recent 
suspension of the use of food and medicine as an economic weapon by the 
United States which could clear the way for an American grain sale to 
Iran, and a general lessening of tensions on both sides whose 
significance is important but should at all costs not be exaggerated.
                           lingering problems
    Although it appears that most Americans, official and otherwise, 
seem to be persuaded by President Khatami's overture to the American 
people, it must also be recognized that the three issues that have 
traditionally divided the two countries, from an American perspective, 
remain significant, even though the magnitude of their significance may 
have lessened over time. The first of these is reliance by the Islamic 
Republic on terrorism which clearly has diminished in recent years. The 
next gap results from Iran's opposition to the American brokered Arab-
Israeli peace effort. For various reasons, this too seems to have 
diminished in significance. In part, this diminution is a reflection of 
a reported discussion between the Iranian leadership and Yasir Arafat 
at the OIC meeting in Tehran in which Arafat was told by his Iranian 
interlocutors that although the Islamic Republic might not favor an 
agreement made between Arafat and the Israelis, that whatever agreement 
Arafat chose to make would be accepted by Tehran. The diminished pace 
of the Arab-Israeli peace process has made Iran's aversion to it 
somewhat less significant, although the salience of this problem will 
continue until Iran is willing to publicly and unconditionally accept 
any Arab-Israeli peace arrangement deemed acceptable by Israel and the 
Arab world. Having said this, a debate about Iran, not unlike that 
being held in the United States, is also emerging in Israel with 
knowledgeable Israelis trying to reassess Iran's regional role and its 
implications for Israel in much the same way that Americans have 
conducted parallel assessments of their own of Iran.
    The final issue, and the one that remains of greatest significance, 
is Iran's attempt to develop a weapons of mass destruction (WMD) 
capability. Here, the particular concern of the U.S. is Iran's drive to 
acquire nuclear weapons. From an Iranian perspective, acquisition of 
these weapons can be understood as a reflection of Tehran's concern 
about Iran's regional status and attempts by its neighbors to acquire 
the same weapons. The recent nuclear test by Pakistan, efforts by 
Saddam Hussein to acquire a nuclear capability which was slowed but 
certainly not eliminated by an Israeli attack on its nuclear 
facilities, the possibility of ``loose nukes'' floating around former 
Soviet Central Asia, and Iran's inability to rearm itself due to a weak 
economy and low oil prices, as well as the residual consequences of a 
debilitating eight year war with Iraq, all conspire to make nuclear 
weapons a comparatively cheap security alternative for the government 
of the Islamic Republic. Despite this, the United States is unwilling 
to sanction such acquisition and, indeed, Iran's nuclear program has 
not only continued to divide the U.S. and Iran, but also has 
contributed markedly to increased conflict between the United States 
and Russia, which is clearly one of Iran's primary supporters. Thus, if 
asked to choose the primary impediment to rapprochement with Iran from 
a U.S. perspective, I would argue that the nuclear issue clearly reigns 
supreme, although the peace process and terrorism issues could reassert 
themselves depending upon conditions in Tehran.
    Impediments to rapprochement exist not only in the United States, 
but also in Iran as well. Despite modest improvements in mutual 
perceptions, in Iran there remains significant distrust of the United 
States, its methods, and its motives. This can be attributed to a 
complex melange of factors including the Mossadeqh affair, U.S. support 
for the Shah, the U.S. commitment to Israel, and a generalized belief 
amongst many, certainly not all, Iranians, official and the man in the 
street, that the United States government wishes Iran ill. Although 
these negative perceptions have diminished among some in recent years, 
amongst others they remain tremendously significant.
    According to some Iranians, the United States can do no right. For 
example, attempts by NATO to assist Kosovar Muslims are regarded as 
laudable, except when such attempts have their origins in Washington. 
In fact, some Iranians find themselves conflicted over this issue as 
they believe that these beleaguered Muslims should be assisted, but not 
by the United States. This contradiction is important and results from 
systemic differences, cultural misunderstandings, and a legacy of 
distrust which is difficult to erase. It is further exacerbated by the 
fact that although President Khatami has shown himself to be a 
sophisticated observer of the U.S. political scene, as well as of U.S. 
intentions, he does not have unquestionable control of all components 
of the Iranian political system. His opponents use his comparatively 
moderate views of the West in general, and the United States in 
particular, as a means to undermine him. Thus, periodic negative 
comments by Khatami about the United States and its policies, although 
they may or may not reflect his personal views, also should be 
perceived as attempts to keep his critics at bay by his not appearing 
to be overly pro-American. The culture of distrust towards the United 
States in Iran is palpable and significant, yet at times contradictory 
and ephemeral. It is difficult to pin it down with any specificity, 
although it undoubtedly exists, and this distrust serves as a 
significant road block to rapprochement between the two countries. This 
culture is part of a broader uncertainty in Iran about the qualities 
and character of the Islamic Republic itself, which asserts itself 
periodically in peculiar and unanticipated ways. For example, it is 
generally thought that President Khatami's recent trip to Italy, his 
meeting with the Pope as part of his dialogue of civilizations effort, 
and other activities related to this trip represent a diplomatic 
triumph for Iran. At the same time however, a parallel trip to France 
was canceled in large part because President Khatami could not allow 
himself to be photographed at meetings or at dinner tables in which 
wine bottles would be visible and spirits might be served by his 
European hosts! France refused to relent and to abstain from serving 
alcohol. Although this conflict between the Islamically mandated 
abstemiousness of the Islamic Republic, and the oenophilia of France 
seems almost comical, it is all too real and prevented an important 
state visit from coming to pass. Such sensitivity, when applied to the 
United States, is of even greater significance, and highlights an 
insecurity and uncertainty amongst the stewards of the Islamic Republic 
about what is desirable and acceptable for and in Iran, and what is 
not.
                              conclusions
    The challenge to both the U.S. and to Iran is for each to maintain 
its core principles while, at the same time, enhancing its interests by 
seeking further rapprochement with a country too important to be 
ignored. The United States will not back down from its commitment to 
Israel, to its democratic principles, and to other values held dear by 
the American people. The Iranians for their part, will maintain their 
commitment to the notion and the reality of an Islamic Republic, 
despite their own uncertainty about what such a polity is meant to look 
like or how it should comport itself internationally. Khatami's efforts 
are serious and should be regarded as such. Excessive U.S. attraction 
to Khatami will hurt him in the eyes of his competitors who eagerly 
seek new pretexts for conflict with the U.S. and instruments to 
undermine him. On the other hand, if we ignore Khatami's gestures, this 
will make rapprochement from Tehran even more difficult. Thus, the 
United States is presented with a significant challenge. Certainly, 
whatever Washington does it will be criticized or misinterpreted by 
some in Tehran. This is inevitable, yet nonetheless problematic, and, 
thus makes the process of rapprochement even more difficult. One way to 
transcend some of these divisions is to devote greater attention to 
areas in which the United States and the Islamic Republic of Iran 
actually have issues in common. These range from the continuing threat 
of Saddam Hussein, to concern over the excesses of the Taliban in 
Afghanistan, in whom neither Washington nor Tehran has much confidence. 
Other common issues exist, such as the problem of drug trafficking, on 
which Iran has taken a hard line. Certainly the legacy of distrust 
between these two countries cannot be erased. Nonetheless, it could be 
muted somewhat in recognition of areas in which the two countries 
actually share some interests and might even be attenuated by remote 
collaboration, or at least, mutual understanding.
               recent developments and new complications
    Since this statement was initially written, two other factors have 
emerged as potentially significant complications to any attempted 
rapprochement between the United States and Iran. The first was the 
arrest of 13 Jews in Shiraz on charges of espionage for Israel. 
Although this arrest has been interpreted by many Khatami supporters as 
an attempt by extremists to undermine President Khatami, the reality 
remains that the 13 remain, at this writing, in custody. Without a 
speedy and complete exoneration, there is a strong likelihood that many 
in the U.S. will regard President Khatami as lacking the necessary 
authority to promote any sort of rapprochement. This skepticism is not 
restricted to the United States alone, but extends to a number of 
Western European powers as well, many of whom have expressed in the 
strongest possible terms their concern over the fate of the prisoners. 
Even if these arrests are indeed an attempt by Khatami's opponents to 
undermine him, their ability to do just this certainly injects a 
significant note of uncertainty about his ability to rule. This 
uncertainty has been heightened even further by another development 
which is of extreme importance.
    In recent days there have been significant clashes between students 
at Tehran University, said to be supporters of President Khatami, and 
those critical of the students and, of Khatami as well, who represent 
key parts of the government beyond Khatami's control, most notably the 
military and intelligence services. Although the conflict between the 
groups appears to have been suppressed, at least for the moment, the 
smoldering tensions between them remains. And facile explanations about 
``pro-democratic forces'' in conflict with more authoritarian elements 
fail, in my view, to capture the complexity of the political 
factionalism within Iran. The United States is in a difficult 
situation, as any official comments made by U.S. officials are likely 
to be used by extremist elements against President Khatami. The recent 
demonstration in Washington by emigre Iranian groups exacerbates this 
problem further as these groups are attempting to exploit the conflict 
in Tehran as a means to advance their own political agendas. In short, 
there is no ideal position for the United States to adopt other than to 
make it abundantly clear to all, that the evolution of domestic Iranian 
politics is an area to which the United States is attentive, but in 
which it has no actual involvement. Certainly there are those in Iran 
who will not accept such a statement at face value even though, in my 
view, it is accurate. But the current tensions in Iran, which are 
unlikely to abate soon, further complicate possible rapprochement with 
the United States and frustrate the efforts of those elements of the 
Iranian state apparatus who may seek such an improvement.
                                 ______
                                 

               [From the Washington Post, July 15, 1999]

                             Voices of Iran

                            (By Azar Nafisi)

    To be taken by surprise by events in Iran has become almost 
routine. The election victory of Mohammed Khatemi in May 1997 came as a 
surprise. Now, with the student demonstrations during the past week, 
Iran has once again surprised us with perhaps the biggest challenge to 
the Islamic regime in the past 15 years.
    The easiest way for us to explain the unexpected turn of events 
would be to repeat the fashionable mantra that this is another instance 
of the clash between the hard-liners and reformist President Khatemi.
    A more apt description is that the events of the past few days 
reflect the paradoxes and contradictions in Khatemi himself. He is on 
the one hand part of the ruling elite and believes in the basic tenets 
of the Islamic Republic. On the other hand, he is genuinely committed 
to certain changes and reforms.
    But it Seems impossible in the case of Iran to have ``virtual 
theocracy.'' To the vast majority of Iranian citizens, ``reform'' means 
something different from what it means to Irans rulers. This is clearly 
understood by the hard-liners, who justifiably see true reform as their 
own doom and the end for all practical purposes of the Islamic 
Republic. The hard-liners have been harassing, arresting, torturing and 
murdering for the past two years not just to oppose Khatemi. They have 
committed these crimes mainly because they fear the growing forces 
within Iranian civil society. The women, progressive clerics, 
journalists and youths at the forefront of the struggles have demands 
that are not identical with Khatemi's ideas of reform.
    The past two years have witnessed an amazing flourishing of civil 
society, an unprecedented critique of reactionary laws and the rule of 
the supreme leader. At the same time, there have been continued human 
rights violations, murders of secular and nationalist figures, 
persecution of minorities, torture and detention of prominent clerics 
and stonings and executions of ordinary citizens as well as activists.
    No, it would be too simplistic to conclude that the hard-liners 
have pursued these policies just to oppose the president. The main 
target of the hard-liners has been the forces within Irans growing 
civil society, forces that now act in the name of democracy rather than 
that of Islam. These forces oppose reactionary laws against women and 
religious minorities, and reject the idea of a Western ``cultural 
invasion.'' When the protesting students chanted ``Long live liberty, 
death to despotism'' and ``Liberty or death,''they were using the 
voices and slogans that ushered in the 1906 Iranian Constitutional 
Revolution.
    The students' slogans for liberty and justice were not just general 
terms. The students have given these words specific meaning through 
their particular demands. The protests resounded against the main 
organs of the Islamic regime: the supreme religious leader, the 
judiciary, the security forces, the revolutionary guards and the 
parliament. The students have demanded freedom for political prisoners 
and freedom of the press. They have evoked as their heroes and ideals 
not just Khatemi but also nationalist leaders Daryush and Parvaneh 
Forouhar, murdered in 1998, and former prime minister Mohammed 
Mossadegh, overthrown in 1953. These nationalists are no heroes of the 
Islamic Republic; the Ayatollah Khomeini so hated Mossadegh that he 
refused to tolerate having a street named after the prime minister 
following the Islamic Revolution.
    Everyone from the leader to the president has condemned the acts of 
violence against the students and has promised justice and punishment 
for the perpetrators of violence. But these pleas and promises have 
been made before, in the aftermath of the murders of nationalist 
leaders, the numerous cases of harassment of ordinary citizens at the 
hands of vigilantes and, recently, the arrest of Jews as spies.
    The unkept promises of the past are coming back to haunt Khatemi. 
The students, disappointed that Khatemi has not been more active, 
chanted, ``Khatemi, Khatemi, where are you?'' Surprisingly, it was 
Khatemi who condemned the protesters' leaders as ``attacking the 
foundations of the regime and of wanting to foment tensions and 
disorders.'' He warned that ``deviations will be repressed with force 
and determination.''
    President Khatemi is not a cause but rather a symptom of change. He 
represents the paradox of both belonging and remaining faithful to the 
regime, and at the same time presenting an agenda that shakes its very 
foundations. He is caught between two forces.
    The standard by which we judge Khatemi, or any force in Iran, 
should be the Iranian people's demands and aspirations, as articulated 
by representatives of the growing civil society. Democratic forces 
around the world cannot afford to be cynical about their own values: 
They should support those values when they are being reasserted and 
fought for in countries like Iran. When and if Khatemi encourages those 
values through deeds as well as words, he should be wholeheartedly 
supported. And when he attempts to block them or throw doubts upon 
them, he should be criticized accordingly.

    Senator Brownback. Thank you, Dr. Green. I particularly 
appreciate your comments about the importance of Iran relative 
to the rest of the region, where we have such involvement in 
strategic interests. You can look at Iraq and what is taking 
place there. You can look at central Asia and Iran's impact and 
influence that they are trying to build and grow in that 
region. You can look at the Middle East peace process, where 
the next 15 months may be a very critical time for it, and Iran 
continues to fight with us in that area. And then the expansion 
and support that Iran is expressing even in some places in 
Africa. They are a key component of our foreign policy 
concerns.
    We welcome Senator Torricelli to the committee. Thank you 
for joining us. I had had an opening statement earlier. If you 
would care to make a statement now, or we can go to questions.
    Senator Torricelli. I prefer to ask some questions, Mr. 
Chairman.
    Senator Brownback. If we could, I would like to look at the 
students and at the protesters first, because that is the item 
that is first and foremost on the news. Are you in some regular 
contact with students, Dr. Nafisi?
    Dr. Nafisi. Yes, sir.
    Senator Brownback. Again, you can get that microphone down, 
if you will.
    Dr. Nafisi. Yes, I am in regular contact with them, through 
e-mail and faxes and phone calls. Actually, I had just a fax 
from them last night.
    Senator Brownback. What is the key plea that you get from 
the students that you are in touch with during this process?
    Dr. Nafisi. Right now, because of the extreme repression 
and because the lives of so many are at stake, this is the main 
thing, to create some sort of international support for them.
    Senator Brownback. Of those who have been arrested and are 
being threatened?
    Dr. Nafisi. Yes, because a number of them have been 
missing. Then the bodies of those who were killed have not been 
given back to their families. So nobody knows exactly what is 
happening.
    In one report which I think I have given to you in my 
statement, they said that the bodies of those who were wounded, 
some of them were stolen from the hospitals and they do not 
know where the missing are.
    Senator Brownback. The students, do they give you any 
estimate on the number that have been killed already?
    Dr. Nafisi. They are not very sure because the government 
has not given back any of the bodies. We know that one girl, 
whose name is also on the list that I gave you, has been 
definitely killed--they have been able to identify her--and one 
member of the militia. These two they are sure of.
    At the very beginning they gave the number as to 5, but 
that was in the first 2 days when they entered the hostels. We 
do not know as yet how many.
    Senator Brownback. Do they talk to you about how many are 
missing?
    Dr. Nafisi. They said that----
    Senator Brownback. Any estimate of that?
    Dr. Nafisi. The last number was 1,400 who have been 
arrested or missing. They also said that they have started 
arresting members of their families. Mr. Amir Entezam, who was 
the speaker for the Barzangon government, who has been in jail 
now for 17 years, he was let out during the Khatemi era and 
taken back again, his wife has also been arrested.
    Four members of the Nationalist Party of Daryush Forouhar 
and his wife--who were murdered--have also been arrested, and 
their names are all given.
    So they are trying to create this conspiracy theory where 
the student leaders and the nationalists have contact with the 
U.S. and Israel.
    Senator Brownback. And the students seek for outside 
international pressure to state these are students who are 
being held for political reasons and their lives are in danger?
    Dr. Nafisi. Yes. It is mainly a plea for--the pleas they 
have made, of course, to the government has been for, first of 
all, the resignation and punishment of the chief of police, who 
is mainly responsible for these events, bringing to justice the 
vigilantes who have been inciting these riots, release of those 
arrested, release of the bodies of those murdered and 
identification of the whereabouts of those who are missing, 
plus the most urgent thing is the guy whom they brought to the 
television and two of the student leaders because of their 
lives being in danger.
    Senator Brownback. Well, as you pointed out in your 
testimony, these students are being heroic in putting their 
lives on the line for simple principles of democracy, and we 
should support them any way that we can. I would hope that as 
you get us names or as we can put them forward that we can post 
those names and write to, contact the government in Teheran, 
and ask what is taking place to these students, and try to 
build that international pressure for their liberation.
    Dr. Nafisi. Sir, also, since then one other publication has 
been shut down and the editor, Mr. Hajarian, has been arrested. 
So there are a number of people. I will give you all the names.
    The journalists--they gave out a communique saying the time 
when the Iranian press could please the enemies of the Islamic 
republic by publishing falsehoods has passed, that anyone who 
publishes anything against the government will be treated 
accordingly.
    There is almost a martial law right now in Teheran.
    Senator Brownback. And they fear that it will spread even 
further?
    Dr. Nafisi. I had a call from one of my students. I had 
actually talked also to my family. They said that it is very 
much--there are curfews in the streets. Of course, you know 
that the government has given out orders to the Iranian people 
to spy out, to tell them the whereabouts of anyone who has 
participated in the riots. At nights there is curfew in the 
streets of Teheran.
    The phones are most probably bugged. But these students did 
put a phone number to be contacted. They have also an e-mail. 
This indicates that they feel the only way they can be safe 
would be through international pressure. The government is also 
concerned about its image and its relations with the West, so 
it will hear your message definitely.
    Senator Brownback. That is something that some of us here 
maybe find a little bit of a stretch, is that the Iranian 
Government is concerned about its international image. It has 
not appeared to be.
    Dr. Nafisi. At least a faction of the government, at least 
Mr. Khatemi. You know, you would be damned if you do, you would 
be damned if you do not.
    One of the papers in Teheran, Neshat, recently said that 
the government has accused those who were murdered by the 
Iranian security as agents of Zionism and U.S. imperialism. It 
has also accused the murderers of those people as agents of 
U.S. imperialism and Zionism. This is the first case where both 
the victims and the murderers are agents of the same forces.
    You can tell how powerful you guys are, you know. It is a 
shame you abdicated your title of the great satan.
    Senator Brownback. Yes, I guess so.
    But let us get those names out and published and pushed 
for. You look back in hindsight on some of the great protests 
that have taken place for freedom and liberty and, whether it 
was in Tiananmen Square or here, clearly we as a Nation stand 
for liberty and we will stand for it everywhere around the 
world, and we want to stand for it as well with these students 
and stand with them.
    Dr. Green, there was an editorial yesterday in the Boston 
Globe calling or asking, is President Khatemi Iran's Gorbachev? 
I do not know if you had a chance to look at that editorial. I 
guess this sort of notion has floated around in some circles.
    Do you have a thought about that?
    Dr. Green. Well, let us take the case of the Jews in 
Shiraz, in which it is being argued by Khatemi's supporters 
that the 13 in Shiraz were arrested by his opponents in order 
to embarrass him. Even if this is the case, Khatemi's inability 
to do anything about it raises significant questions about his 
ability to rule, which is one of the concerns of the students 
that Dr. Nafisi has been talking about, that in a sense his 
good intentions are only as significant as his ability to 
implement them.
    I think that it is quite clear that being compared to 
Gorbachev is a compliment and an insult simultaneously. There 
are elements of both of those qualities which I think can be 
attributed to Khatemi. He has not shown himself as forceful, 
dynamic, or as effective as even those who are his most fervent 
supporters. Khatemi is only as good as his authority, and his 
authority is extremely limited.
    Senator Brownback. Senator Torricellli.
    Senator Torricelli. Thank you, Mr. Chairman.
    Let me ask these questions to anyone on the panel that 
would like to respond. First off, the degree to which you 
believe that these student actions are entirely of their own 
volition? Is there any evidence that exile organizations are in 
concert with them or provided any inspiration to them or worked 
in concert with them?
    Dr. Nafisi. Well, sir, definitely there will be different 
exile organizations who would have claims. I would like to say 
that especially Mujahedin-e-Khalq, who have been making claims, 
are not a popular organization at the time being in Iran. They 
do not have popular support, so that is one thing that I would 
like to mention.
    The ferment, what has been happening in Iran, basically 
comes from within Iran. Now, obviously different groups outside 
Iran will use it to their own advantage.
    Senator Torricelli. That is a different question. But the 
actual stimulation for this activity was from the students 
themselves?
    Dr. Nafisi. From within the students. This Mr. Mohammadi 
who came abroad--he came when the dialog between people to 
people was being talked about--he talked openly to all the 
newspapers and he met with different groups. But it was not an 
incitement. Already within Iran a lot of things were happening 
before this.
    Senator Torricelli. Do any of you believe that, if you were 
to project out, which I recognize how difficult this is to do, 
that this either leads to an increase in student activism and 
larger demonstrations that are difficult to control or, given 
the reaction of the government to this, forces an underground 
political operation, either way threatening the regime?
    Dr. Green. I think that this activity has not been 
restricted exclusively to Teheran. It has been happening 
elsewhere in the country. I certainly could see this growing in 
a way that would, if not threatening the regime, would 
certainly undermine its already extremely limited ability to 
accomplish much of anything.
    Senator Torricelli. I know I am asking you something that 
is very difficult, to provide some fair amount of guesswork. 
But more likely that this becomes in public demonstration and 
open organization, despite the risks, or, given the regime's 
reaction, forcing this underground, either an armed insurgency 
or organization?
    Dr. Green. I would say being driven underground, but it is 
unclear what that is likely to bring.
    Ambassador Laingen. Senator, may I comment on that point?
    Senator Torricelli. Please.
    Ambassador Laingen. Let me just say at the outset, Senator, 
that I salute you as a former participant in A Presidential 
Classroom for Young Americans. As a board member and former 
chairman of the board, I take every opportunity that I have to 
commend what you have done then and what you do today----
    Senator Torricelli. Thank you very much.
    Ambassador Laingen [continuing]. To support the work of A 
Presidential Classroom for Young Americans.
    I do not believe this affair is a threat to the regime. It 
depends on what you mean by that. The regime can cope in the 
short term, as you have seen on the streets, with the security 
they have got and the help they have got from the vigilantes 
and the Hazari Hezbollah and the Besijj. Yes, it can cope, so 
in that sense I do not think it is a threat.
    Others have pointed out that this is the beginning, the 
beginning, as someone reported the other day, in the contest 
leading up to the elections in February 2000, the parliamentary 
elections, when both sides are going to be very active out 
there.
    I think, in response to another question either you or 
Senator Brownback raised, whether there is evidence of outside 
involvement in these demonstrations, no, not in their origin, 
but when it went onto the streets briefly then I think there is 
evidence that outside elements, from hooligans to possibly the 
Mujahedin-e-Khalq, took advantage of that to stir things up a 
little further.
    Senator Torricelli. On the government side, does it appear 
that the government has succeeded in infiltrating the 
organizations, the student organizations, to compromise their 
ability to continue to organize and operate?
    Ambassador Laingen. I think the government has that 
capacity. I cannot speak to whether it has or not.
    Dr. Nafisi. Well, you know, the situation in Iran right now 
is very different from before. The activities have been mainly 
very open. I think the government does have an estimate of who 
the leaders are. This is very different from the 1979 
revolution in that underground activity the way the guerrilla 
organizations could effectively do then is not effective now. 
Almost the whole citizenry is involved.
    You should remember that this is a government that has 
made--my students were expelled because one of them was charged 
with giggling, with laughter of the giggling kind. Another one 
was charged with running up the stairs for her class because 
she was late. Now, when you do that then you involve the whole 
citizenry. The non-political people like myself become 
involved.
    So what the government is dealing with right now is these 
people in the streets. The way the young people do, they do not 
go into the streets and demonstrate. They let a little bit of 
hair out. There are patrols in the streets with guns for me 
showing my hair. So this is how the situation is.
    I do not think--and the fact that they have the web site 
right now and the fact that they are trying to appeal to the 
government openly shows that as long as they can they will make 
it open.
    Senator Torricelli. Let me ask you a final thing before my 
time expires. I had read that it actually had been acknowledged 
that many of the 13 people of the Jewish faith who had been 
arrested in Iran, acknowledged that they were not in fact 
spies. Has that actually been said by people in authority?
    Dr. Nafisi. By who?
    Senator Torricelli. By people in authority.
    Dr. Nafisi. No.
    Senator Torricelli. There has been no--there has been no 
presentment of charges and no acknowledgements of innocence or 
guilt?
    Dr. Green. Well, it is not clear what they are being 
charged with, other than vague suggestions that they were 
involved with the defense ministry and somehow were sending 
information to Israel. But formal charges have not yet been 
laid.
    Senator Torricelli. Let me just say finally, too, my hope 
would be that the administration would recognize that, given 
events in the streets of Teheran, any easing of relations in my 
judgment, any attempt at dialog at this point, would be greatly 
misinterpreted and misunderstood. I know there are some in the 
Congress who may be attempting to lift American trade sanctions 
to allow the exportation and importation of different items. I 
hope people recognize how damaging this would be, how it would 
be misused and misinterpreted by the government in Teheran, and 
how very much these students might feel abandoned if this 
appeared to be an embrace of the regime at a time when they are 
this repressive.
    Thank you very much.
    Thank you, Mr. Chairman.
    Ambassador Laingen. Senator, I think I can speak for my 
colleagues on the panel that we all recognize that danger and 
that that is very clear in the context of the immediate events, 
and not least given the sentiment that we have heard for so 
long about the activity of the great satan behind the scenes.
    Senator Torricelli. Yes, and I am not talking about the 
long-term development of a relationship as the regime may 
change or reform.
    Ambassador Laingen. I know.
    Senator Torricelli. But I am talking about at the moment I 
would urge the administration and the Congress not to engage in 
any miscalculation. The potential for being misunderstood and 
abandoning these students is enormous.
    Ambassador Laingen. I read into the record, Senator, before 
you came in, the statement by the President yesterday. 
President Clinton in his press conference had alluded to that 
same point, but then went on to say that as an American 
obviously, looking at those students, we share their concern 
for freedom. To me, that is what we ought to be saying now, 
carefully.
    Senator Torricelli. Exactly.
    Dr. Green. But I also think that we are analyzing events 
which have only manifested themselves in the last 2 weeks, at 
least in a vivid public fashion. I think to expect that the 
government is going to fall, that the government is going to be 
shaken----
    Senator Torricelli. I understand that. It is always 
difficult to reach any conclusions on potentially great moments 
in history from the perspective of a few days. This could 
become a footnote in the history of the Iranian revolution or 
events could now be set in motion that are going to change the 
course of Iranian history. It is impossible to know.
    We simply have the responsibility not to interfere against 
the possibility that this is a great event. It is not for us to 
control, but we do have the responsibility not to become a 
problem.
    Thank you, Mr. Chairman.
    Ambassador Laingen. I wanted to add to that, if I may, 
Senator.
    Senator Brownback. Please.
    Ambassador Laingen. All of these events involving the last 
few days are reminiscent to me, of course, of the events of 
1979, 20 years ago, when students then in a new revolution took 
to the streets, particularly with the seizure of the embassy in 
November 1979, to redirect the course of that revolution into 
the more radical direction that it has been on ever since.
    As I write in an article in the Christian Science Monitor, 
today, these students are again a kind of engine of change. 
They are not challenging the revolution directly, but they do 
want to redirect it, if you will, calling on Khatemi to be 
responsive, to be showing that he means what he says about 
greater freedoms within the rule of law.
    I do not think that these students are a challenge to the 
regime. I think they are a challenge to the hard-liners, yes. 
But they are calling on Khatemi. They are, as I think Dr. 
Khatemi said--excuse me, Dr. Nafisi said--these are children of 
the revolution. They are indeed, and they are not challenging 
it directly.
    Dr. Nafisi. Sir, perhaps the safest--and I do not mean not 
risk-taking, but the most principled--way to go about it would 
be not to support individuals merely, but to support the 
principles and ideas they stand for.
    Senator Brownback. Indeed, they are our ideas and 
principles, the slogans that you have put forward Dr. Nafisi.
    Dr. Nafisi. Where Mr. Khatemi does act according to those, 
he should be supported. Where not, he should not. It just 
depends.
    Senator Brownback. The slogans you putting forward, ``Death 
to Despotism, Long Live Liberty,'' that is the lead slogan.
    I am curious. What do you think led to the arrest of the 13 
Jews that were arrested, and how would you assess the 
administration's response?
    Dr. Green. My impression is the fact that it was in Shiraz 
outside, not in Teheran, is significant, in large part because 
I do think it was an attempt by extremists to embarrass 
Khatemi. Why they chose this particular cause celebre as 
opposed to others is unclear to me, but there was a demonic 
wisdom in making this particular selection, largely because it 
really did paralyze certain foreign policy initiatives vis-a-
vis the Europeans and others, and particularly Germany.
    But one thing I would also say, to go back to an issue we 
were talking about about in relation to external involvement. 
Everything that happens in Iran is a product of--I do not want 
to say global forces. That sounds too dramatic. But it is not 
self-contained. This is not Albania in the old days or North 
Korea. Iran is an electronically wide open country, with 
telephones and the Internet and so forth.
    The Iranian revolution in 1978-79 was an information 
revolution revolution. Khomeini was very effective in using the 
tools of modern communication. This is magnified even further, 
with tools that did not even exist then, like the fax machine 
and the Internet and so forth. So that it is clear there is 
some external involvement.
    But the question is is it institutional or is it 
individual. Do students at Stanford University with Iran 
related web sites and home pages matter? Khatemi had a web site 
in the U.S. during the election, even though Iranians in Iran 
were not really able to access it. So there is clearly an 
international dimension to this. It is not at all certain what 
it means.
    The second point is that although the regime's existence is 
not threatened, but its already limited ability to do anything 
is threatened. And if it is paralyzed, which in fact it may 
well be, this could have dire consequences for Iran, because it 
is just this paralysis that led the students out in the street 
in the first place, also to broken promises, things that 
Khatemi was sympathetic to, but that he could not deliver.
    I think the issue is not is the government being toppled a 
la 1978-79, but rather how efficacious is it going to be, given 
its limited efficacy to date. There I think there really is a 
risk of paralysis and inactivity.
    Senator Brownback. Well, it seems as if Khatemi's words and 
deeds just do not match up. I mean, he is able to put forth and 
articulate a softer line, but we continue to see support for 
Hezbollah, we continue to see a lack of freedoms for the people 
within Iran, that there is just a mismatch.
    I wonder if you would agree that, or if you think, that one 
of the losers in this recent crisis in Iran is President 
Khatemi?
    Dr. Nafisi. Sir, and also in terms of the Jewish prisoners, 
I just wanted to add to what Dr. Green and Ambassador Laingen 
were saying. The Iranian Government in the past when it gets 
into crisis, especially on the international level, does this 
sort of thing. In response to the Germans, they arrested a 
German businessman on the charge of adultery with an Iranian 
woman and they charged him and they were going to execute him. 
Then they negotiated behind the scenes with the German 
Government for about a year and a half before they finally 
retried him.
    The best case in the case of the Jews, as in the case of 
the Germans, is to be firm. Bahais would tell you about that, 
that it was only international pressure on the regime which has 
saved the lives of the few Bahais that have been saved.
    Senator Brownback. Yes, Mr. Laingen.
    Ambassador Laingen. Dr. Nafisi has referred to Khatemi as a 
paradox. He is indeed that. She also referred to the way in 
which he has constructed a democracy of words, alluding to what 
you have said. It is not clear what he is saying, what he 
means. I think it is very unclear, in terms of the context of 
Iran, where he thinks he can take that.
    Senator Brownback. You say he is very unclear?
    Ambassador Laingen. I think it is unclear just what he is 
talking about when he speaks of a rule of law and a civil 
society. What does he mean by that? To read his speeches, 
particularly those he has made in the West, that is in Italy in 
that state visit he made, they are beautiful words. Read them: 
pluralism, rule of law, democracy. But the rest of us should be 
given the respect to ask, what do you mean by that? Is that 
compatible within the kind of theocracy that he still 
represents?
    He is, after all, a member of the revolution, of Khomeini 
origins. He is a cleric. He is of that regime. Khatemi in my 
view is not the future, but he does symbolize a demand, a 
sentiment, broadly in that society. That society is weary of 
the revolution, at least weary of its strictures and its 
limitations and its denials of what they seek. And this is a 
complex, once Western-oriented society, and there are a lot of 
them who are troubled by that kind of stricture.
    He is not the future, but he does symbolize a different 
direction that that revolution must take if it is to continue, 
if it is to maintain--not to maintain, to gain the support of 
the emerging young people of that society, evident in these 
students. The young people in Iran are no different really; 
they hear a lot and they see a lot and they want to be part of 
the world out there.
    And Khatemi I think recognizes more, certainly more than 
Khamenei does, that somehow that revolution has got to change 
in the direction of ensuring that it wins the allegiance, keeps 
the allegiance, of young people. It risks failing that, I think 
it risks failing that under Khatemi, although he may be much 
more of a ``democrat'' than I conclude now. He sounds good, but 
he remains--as Dr. Nafisi said, he speaks of a democracy of 
words, and I do not know where that is going, and I am not sure 
he does.
    Senator Brownback. Let me ask you, Dr. Green, how would you 
interpret Iran's efforts to build better relationships 
externally? Egypt, Saudi Arabia, some of the Gulf States, and 
some other places have been noted. How do you interpret that?
    Dr. Green. I am much impressed by Iranian diplomacy. I 
think Iran realized that it could not remain isolated. It was 
being contained by the United States and it needed to find 
strategic alternatives. I think that the opening up to Saudi 
Arabia was a brilliant piece of diplomacy on their part. I was 
very impressed by their ability to ignore a lot of their own 
ideological concerns, which they do regularly, and to make a 
deal with Saudi Arabia. Indeed the Saudi's and the UAE have 
been in disagreement over Saudi's Iran policy, which the UAE 
feels is a little bit too tolerant of Iran.
    Khatemi's visit to Italy was a brilliant triumph. To have a 
dialog of civilizations with the Pope, it does not get much 
better than that. But the failure of the trip to France was 
unbelievably foolish and difficult to understand, showing in 
fact the limitations on Khatemi, just as my colleagues are 
saying. That that trip did not happen really is something which 
shows with great eloquence how limited he is.
    But the establishing of a relationship with Lebanon, as 
opposed to groups in Lebanon, Egypt, after a poisonous 
relationship between Egypt and Iran--the Iranians have been 
very effective in their international diplomacy and very 
successful, and at times at our expense, given that U.S. policy 
to Iran has been unlike the policy of any other state toward 
Iran. We have been very, very isolated in our views of Iran, 
which has made our international diplomatic situation somewhat 
more difficult.
    When the United Kingdom re-established diplomatic ties with 
Iran at the highest level, despite Rushdie--the Iranians were 
able to have it both ways with Rushdie, which is on the one 
hand the bounty was increased, on the other hand the Government 
in Teheran saying, we are not going to act on this because it 
is not really us. When Britain agreed to this, in a sense that 
was the last straw for the United States because we were the 
last state to seek Iranian containment, and we were left very 
much by ourselves.
    Senator Brownback. Dr. Green, would you agree, though, that 
even though they have had some excellent diplomatic triumphs, 
that their actions internationally have not changed appreciably 
over the last 5 years?
    Dr. Green. I think that, again, they would like to have it 
both ways so that one could argue both sides of it. They told 
Yasser Arafat at the OIC meetings in Teheran, any deal you make 
with Israel is fine with us, while at the same time issuing 
exactly the kind of rhetoric that my colleagues have been 
referring to. They would like to have it both ways. Khatemi is 
trying to appeal to multiple constituencies simultaneously. 
What we may see happening now is his failure to attract any of 
them to a significant degree.
    The WMD issue is the one that I am most concerned about. 
That is the most important issue.
    Senator Brownback. And they continue to pursue that----
    Dr. Green. Absolutely.
    Senator Brownback [continuing]. With aggressiveness?
    Dr. Green. Oh, I think so.
    Senator Brownback. That is all the reports that I see.
    Dr. Green. They do.
    Senator Brownback. They continue to support Hezbollah.
    Dr. Green. Hezbollah I regard as a less significant issue, 
in part because they have been trying to diversify their 
relationship with the Lebanese Government and ultimately I 
think Hezbollah in Lebanon is only as good as its ability to 
make mischief. I am hoping that the Barak election and a lot of 
the movement that you referred to earlier is going to give 
Hezbollah fewer opportunities to exert itself.
    Interestingly, Iranians are to Hezbollah what a lot of 
other foreign forces have been to other groups in Lebanon. The 
Iranian experience in Lebanon has been as frustrating for them 
as our experience has been to us, the Israelis' has been to the 
Israelis, and the French experience has been to the French. At 
the end of the day, the Hezbollah will not play. They do not 
want to turn Lebanon into the Islamic republic of Lebanon. They 
are not all out studying Persian. They are Lebanese trying to 
forge a Lebanese solution, and Hezbollah within Lebanon has 
dual qualities as well. The way the Lebanese regard it is 
somewhat different than the way in which we regard it.
    So I think it is less of an issue. I believe the terrorism 
and Israel issues could change tomorrow. The Iranians have 
taken significant steps to clean up their act on those two 
issues, not to complete satisfaction but there has been 
improvement. It may not be enough, but it is better.
    But I also think that the improvement could be ephemeral, 
depending upon other contextual political conditions. Iran 
could return to the terrorism game if it wanted, or to aversion 
to the peace process if it wished.
    The WMD issue, however, that has not abated. The problem 
here is that this is not only a bilateral U.S.-Iran issue. It 
is a bilateral U.S.-Russia issue, and that brings in NATO and a 
whole variety of other factors, so that it makes it a 
particularly contentious and difficult issue.
    Senator Brownback. It strikes me that Iran's objectives 
have not particularly changed, their sophistication has. Their 
external objectives have not changed, but their sophistication 
at moving so, and perhaps they take some of the edges off of 
some places in their foreign policy efforts or in their efforts 
to spread the revolution, but it has merely grown much more 
sophisticated.
    Dr. Green. I think I would disagree with you, only in that 
I think that they have become more realistic about their 
ability to export the revolution and they have become more 
accustomed to failure. No where have they succeeded in creating 
significant long-term mini-Iran type revolutionary scenarios.
    In Bahrain, they failed. No one has really emulated the 
Iranian revolution. So what you are hypothesizing, and I think 
it is worth considering, is that although their tactics have 
failed, their goals remain the same; they may be trying 
different tactics, which is what you are suggesting, which is 
possible.
    Senator Brownback. And on a slower road, that it may not 
happen in 5 years, but we will get there in 15.
    Dr. Green. The revolution is now 20 years old. A lot of the 
enthusiasm, a lot of the naivete, a lot of the excitement, a 
lot of the freshness has paled. Indeed, when Iran got out of 
the exporting revolution business and diminished its support 
for terrorism--they did not completely eliminate it, but they 
diminished it.
    What you are suggesting--and it is quite possibly 
accurate--is they are using different techniques to accomplish 
the same things. I think that the revolution fatigue has also 
limited their expectations about their ability to transplant 
what was in fact a uniquely Iranian event, despite the Islamic 
character of it, elsewhere; and that the Islamic world is as 
diverse as is other portions of the world.
    Lebanese Muslims are not simply Shi'a Muslims. They are 
also Lebanese. And it is the Iranian part of it that does not 
travel well, simply because there are differences. But you may 
well be right. It is an important issue.
    Senator Brownback. Anything else? Yes, Mr. Laingen?
    Ambassador Laingen. It is a question, I think as you say, 
of appreciation----
    Senator Brownback. Could you get up close to that mike? I 
am having a little trouble hearing you.
    Ambassador Laingen. It is a question of appreciable change 
or something else. There is no question today in my view that 
Iran, Iran's leadership, particularly Khatemi, are concerned 
about their image for a variety of reasons, including economic 
problems of their economy--we have not talked about that--which 
underlie much, undergird or underlie and affect much of the 
actions of the government today.
    Their change of image, their concern about image, is not 
least in the context of Saudi Arabia. Khomeini on his deathbed 
issued a last will and testament in which he warned his 
revolutionary colleagues and the people of Iran about the 
evils, the dangers of dealing with Saudi Arabia, that nation to 
the south. Today what Iran is doing in terms of reaching out, 
changing its image, is exemplified particularly vis-a-vis Saudi 
Arabia, and of course there is an economic factor there with 
the oil pricing issue. The low cost, low price on oil, recently 
has been buoyed, not least by the degree to which Iran and 
Saudi Arabia have been able to cooperate in that context.
    In the area of perception, I think it is clear that the 
Iranians have cleaned up their act a little bit in the field of 
terrorism broadly. On the Arab-Israeli peace process, that very 
critical factor I think in the degree to which the American 
public sees any change in that regime, there has not been that 
much change. Dr. Green has referred to what was supposedly the 
assurance that Arafat got at one point. Since then, of course, 
Khatemi himself, that symbol of supposed change, when he was in 
Damascus recently received and talked with some of the most 
hard-line leaders of the anti-Israeli position in the Middle 
East there.
    On weapons of mass destruction, there I think we should not 
forget that the Iranians regard themselves as a major power in 
that region, that the regime there today looks around and sees 
its neighbors engaged in what we call weapons of mass 
destruction or the pursuit of some of them--Pakistan and India 
and the former Soviet Union, Russia, to the north, Iraq and its 
activities in the past, Israel of course.
    The view of the regime there today in terms of weapons of 
mass destruction, in terms of military prowess, is no different 
essentially from the viewpoint of the Shah of Iran, who wanted 
to see Iran respected and recognized in time as the dominant 
regional power, and that that should be accompanied by the kind 
of military prowess that in his view, and in the view of some 
of the leaders of the revolution today, feel must accompany 
that claim.
    Senator Brownback. Well, thank you all very much. It has 
been a wonderful panel and a good discussion on an important 
topic that we have not discussed near enough and will continue 
to be with us as the U.S. Government.
    The record will remain open for 3 days if you would care to 
add additional comments or writings that you have had into that 
record. I appreciate greatly your traveling and coming here and 
sharing of your expertise.
    Ambassador Laingen. Senator, I want to put on the record 
before we disperse, the concern that Dr. Nafisi has registered 
about the arrest of the wife of Amir Entezam in Teheran. That 
is apparently happening in this context. Amir Entezam has 
suffered for almost 20 years because of his involvement with 
the United States in the past. He was the deputy prime minister 
when I was there after the revolution, a man whom I continue to 
respect enormously, who has suffered for now 20 years in and 
out of prison, and I regret deeply, and I hope it is not true, 
that his wife has now been arrested as well.
    Senator Brownback. Well, I think we have to do much to 
publicize these people who are in prison there, and advocate 
for their freedom internationally and push for that. So that is 
why I hope we can continue to get these names in and pursue 
those and pursue that publicly.
    Thank you very much. The hearing is adjourned.
    [Whereupon, at 11:37 a.m., the subcommittee was adjourned.]

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
